LIMITED AUDIT OF THE FISCAL YEAR 2006
    FEDERAL MANAGERS’ FINANCIAL
     INTEGRITY ACT SECTION 2 AND
  SECTION 4 ASSURANCE STATEMENTS
  REPORT NUMBER: A060224/A/F/F07003
          NOVEMBER 1, 2006




                  3
November 1, 2006

Reply to     Andrew Patchan, Jr.
Attn of:     Acting Assistant Inspector General for Auditing (JA)

Subject:     Limited Audit of the Fiscal Year 2006 Federal Managers’ Financial
             Integrity Act Section 2 and Section 4 Assurance Statements
             Report Number: A060224/A/F/F07003

To:          Lurita Doan
             Administrator (A)

             David L. Bibb
             Deputy Administrator (AD)

This report presents the results of the Office of Inspector General’s (OIG) limited
audit of the General Services Administration’s (GSA) Fiscal Year 2006 Federal
Managers’ Financial Integrity Act (FMFIA) Section 2 and Section 4 Assurance
Statements. The assurance statement questionnaires prepared by the Regional
Administrators (RAs) and the Heads of Services and Staff Offices (HSSOs) are
used by the Management Control and Oversight Council as a basis for
developing the Administrator’s FMFIA Assurance Statement to the President and
Congress. The objective of the audit was to determine whether the Section 2
and Section 4 Assurance Statement questionnaires, as prepared by the RAs and
the HSSOs, adequately disclosed all known control weaknesses and non-
conformances in the Agency’s programs, operations, and systems.

To accomplish our objective we reviewed the FMFIA Section 2 and Section 4
Assurance Statement questionnaires submitted by the RAs and HSSOs, internal
and external audit reports, and the findings noted to date by
PricewaterhouseCoopers LLP (PwC), an independent public accounting firm, in
their audit of GSA’s Fiscal Year 2006 Financial Statements.

The audit was performed in accordance with generally accepted government
auditing standards from August through October 2006. However, we did not
perform an assessment of the internal control structure over the agency’s FMFIA
evaluation and reporting process. Accordingly, we do not express an opinion on
the adequacy of the basis used in the preparation of the assurance statements
submitted by the RAs and HSSOs.
                             RESULTS OF AUDIT

In reviewing those management and systems control weaknesses reported in the
FMFIA Section 2 and Section 4 Assurance Statement questionnaires as
prepared by GSA management, the Agency senior officials reported weaknesses
in the following areas: Compliance with Federal Financial System Requirements;
Human Capital Management; and Internal Control Issues at the Ft. Worth Office
of Finance. In addition to these weaknesses, our review of audits performed by
the OIG identified issues relating to the Implementation of the Federal
Information Security Management Act and Required Background Investigations
Not Completed for Contractors.

Compliance with Federal Financial System Requirements

The Chief Financial Officer (CFO) and Deputy CFO both issued qualified Section
4 Assurance Statements due to Compliance with Federal Financial System
Requirements. The rationale behind the qualification was distributed across
three areas: 1) a need for significant clean-up of Unfilled Customer Orders and
Obligations, 2) the lack of integrated feeder systems for Pegasys, and 3)
inconsistent data elements from the feeder systems. The report on GSA’s
compliance with the Office of Management and Budget (OMB) Circular No. A-
123, Appendix A, also noted high risk areas for each of the Services at GSA.
The report listed exceptions for the Federal Supply Service in Unfilled Customer
Orders and Undelivered Orders, the Federal Technology Service had exceptions
in Unassigned Funding and Non-Dial Tone Undelivered Orders and, the Public
Buildings Service had exceptions in Unfilled Customer Orders, Delivered Orders
Unpaid, and Undelivered Orders.

Shortage of Human Capital

In reviewing the Section 2 Assurance Statements we found 9 instances in which
a shortage in human capital was noted. However, only 1 of these 9 instances
resulted in a qualified opinion. According to responses in the Section 2
Assurance Statements, these shortages may be attributed to unfilled vacancies,
an agency-wide hiring freeze, and employee buyouts.           In 2006, GSA
implemented a temporary hiring freeze for the Federal Technology Service,
Federal Supply Service, and General Management and Administration staff for
organizations funded through the Working Capital Fund. The concerns noted
throughout the Section 2 Assurance Statements was that the shortage of human
capital may have an effect on the ability to sustain and recruit new business
opportunities, customer service, and the ability to meet performance
requirements.




                                       2
Internal Control Issues at Forth Worth Office of Finance

As reported in the Region 7 Section 2 Assurance Statement, the Ft. Worth Office
of Finance issued a qualified assurance statement relating to internal controls.
Specifically, the assurance statement details inadequate internal controls to
preclude overspending of client agency funding, a lack of timely close out of
contract payment files and prompt return of excess client funding, a lack of strong
system internal controls related to the submission of financial data through FTS’
Order Management Information System (OMIS), and lack of strong internal
controls related to the timely reconciliation of PBS charge card logs.

GSA’s Implementation of the Federal Information Security Management Act

As required, the OIG performed the Fiscal Year 2006 review regarding GSA’s
progress in implementing the Federal Information Security Management Act
(FISMA). The purpose of FISMA is to provide a framework for securing Federal
information systems. Although steps have been taken to address previously
reported weaknesses, the auditors found instances where the Information
System Security Officers (ISSO) and Information System Security Managers
(ISSM) did not ensure that systems were properly secured. The auditors also
found that there is a need for improved policy and procedures to establish
standardized performance goals and measures for associates and contractors
performing ISSO and ISSM responsibilities, since these individuals do not
typically report directly to the Office of the GSA Chief Information Officer.

Required Background Investigations Not Completed for Contractors

As part of the OIG’s FISMA Review of GSA’s Information Technology Security
Program, the status of contractor background investigation was tested for ten
systems. In eight of the nine systems utilizing contractor support personnel
reviewed, a number of security investigations had neither been completed and/or
requested as follows:

       For the e-buy system, out of 94 contractor personnel, 12 background
        investigations were completed and 82 were not completed.
       For the USA Services/NCC system, for all 5 contractor personnel,
        background investigations were not requested.
       For the Data Gateway system, out of 5 contractor personnel, 1
        background investigation was completed, 2 were not completed, and 2
        were not requested.
       For the FEDdesk system, out of 7 contractor personnel, 6 background
        investigations were completed and 1 was not completed.
       For the Region 5 PBS LAN system, out of 22 contractor personnel, 7
        background investigations were completed and 15 were not completed.



                                        3
                    LIMITED AUDIT OF THE FISCAL YEAR 2006
                        FEDERAL MANAGERS’ FINANCIAL
                         INTEGRITY ACT SECTION 2 AND
                      SECTION 4 ASSURANCE STATEMENTS
                      REPORT NUMBER: A060224/A/F/F07003
                              NOVEMBER 1, 2006


Report Distribution                                         Copies

Administrator (A)                                             3

Deputy Administrator (AD)                                     3

Inspector General (J)                                         1

Acting Deputy Inspector General (JD)                          1

Acting Assistant Inspector General for Auditing (JA)          2

Audit Operations Staff Office (JAO)                           1

Assistant Inspector General for Investigations (JI)           1

Audit Follow-Up and Evaluation Branch (BECA)                  1




                                         5
